                                              U.S. Department of Agriculture
                                               Office of Inspector General
                                                 Washington, D.C. 20250




DATE:                 July 12, 2010

REPLY TO
ATTN OF:              27703-02-Hy

TO:                   Julie Paradis
                      Administrator
                      Food and Nutrition Service


ATTN:                 Katherine Day
                      Director
                      Office of Internal Controls, Audits and Investigations

FROM:                 Gil H. Harden /s/
                      Assistant Inspector General
                         for Audit

SUBJECT:              State Fraud Detection Efforts for the Supplemental Nutrition Assistance Program


The American Recovery and Reinvestment Act of 20091 (Recovery Act) provided the
Department of Agriculture with $28 billion in funding. Of this amount, $19.8 billion was
specifically allotted to the Food and Nutrition Service (FNS) to fund the 13.6 percent increase in
benefits to participants in the Supplemental Nutrition Assistance Program (SNAP).2 Congress,
in enacting the Recovery Act, emphasized the need for accountability and transparency in the
expenditure of funds. Further, on February 18, 2009, the Office of Management and
Budget (OMB) issued initial guidance that required Federal agencies to establish rigorous
internal controls, oversight mechanisms, and other approaches to meet the accountability
objectives of the Recovery Act.3 OMB issued additional guidance on April 3, 2009, to clarify
existing requirements and establish additional steps that must be taken to facilitate the
accountability and transparency objectives of the Recovery Act. Moreover, OMB emphasized
that, due to the unique implementation risks of the Recovery Act, agencies must take steps,
beyond standard practice, to initiate the additional oversight mechanisms.4




1
  Public Law 111-5, February 17, 2009.
2
  The potential amount of benefits to be funded through the Recovery Act increased when estimates were prepared for the fiscal year (FY) 2011
budget. According to FNS, the Recovery Act funding for SNAP is now estimated to total $65.8 billion through FY 2019.
3
  Office of Management and Budget Memorandum M-09-10.
4
  Office of Management and Budget Memorandum M-09-15.
Julie Paradis

SNAP provides nutrition assistance to approximately 40 million low-income individuals and
families by supplementing their incomes with benefits to purchase food they need for healthy
eating choices. FNS administers SNAP through a Federal-State partnership by which the Federal
Government pays the full cost of recipient benefits, while the cost of administering the program
is shared with the States. SNAP regulations specify functional areas to be addressed by the State
agencies; however, these regulations did not establish a standardized system of internal control at
the State level. FNS’ policy is to allow States the flexibility to establish control systems that
meet the individual needs of each State. In addition to administering the day-to-day program
operations, State agencies also have the primary responsibility for monitoring recipients’
compliance with program requirements and for detecting and investigating cases of alleged
intentional program violation.5 States do not have responsibility for monitoring program
compliance by participating retailers; this function is performed by FNS’ Compliance Branch.

The audit objectives are to assess FNS’ oversight of State agencies’ efforts to identify recipients
fraudulently misusing SNAP benefits, and to determine whether Recovery Act funds are
expended in a manner that minimizes the risk of improper use. This report documents the results
of our assessment of FNS’ oversight of States’ fraud detection units, and describes the need for
FNS to periodically perform reviews of State fraud detection efforts to identify areas which need
improvement. To accomplish our objectives, we conducted fieldwork at the FNS national office,
the FNS Mid-Atlantic Regional Office, and the FNS Southeast Regional Office. Additionally,
we visited the State Agencies in Florida and New Jersey, as well as five county offices in
New Jersey. We conducted interviews with pertinent FNS and State officials, reviewed program
regulations, and assessed program policies and procedures, as well as internal controls relating to
the SNAP program.

According to Federal regulations,6 each State is required to establish and operate internal fraud
detection units in all areas in which 5,000 or more households participate in SNAP. Each fraud
detection unit is responsible for detecting, investigating, and assisting in the prosecution of
program fraud committed by SNAP recipients. In May 2009, FNS issued its American Recovery
and Reinvestment Act Plan, which stated that management evaluation (ME) reviews would be
conducted of State SNAP program operations as a tool to measure and improve the integrity of
program benefits. The ME reviews are performed by both the FNS regional offices and the
States. This review process addresses specific program target areas determined by the FNS
national office to measure compliance with policies, procedures, and standards of timeliness as
mandated by program regulations. States have the option to include additional target areas for
review, as they deem necessary, to assure that FNS programs are operated in an efficient and
effective manner within each State. However, the specific target areas determined by FNS do
not include coverage of State fraud detection units. Only one of the two States we visited,
New Jersey, had included reviews of the State fraud detection unit as a supplemental target area


5
  An intentional program violation is defined as any act violating the Food Stamp Act, the Food Stamp Program regulations, or any State statute
for the purpose of using, presenting, transferring, acquiring, receiving, possessing, or trafficking authorization cards. Also, it is any act that
constitutes making a false or misleading statement or concealing or withholding facts.
6
  Title 7 CFR, §272.4 (4) (g), January 1, 2009.


Audit Report 27703-02-Hy                                                                                                                             2
Julie Paradis

in its ME reviews. However, that State’s fraud detection unit reviews were limited to ensuring
that salaries attributed to each fraud investigator were solely for the purpose of performing fraud
related activities.

We found that neither State we visited had developed a fully effective fraud detection unit. FNS
had not conducted periodic reviews of the States’ fraud detection efforts to verify their
effectiveness. According to an FNS national office official, such reviews were not considered
necessary because information collected by States for FNS’ annual State Activity Report (SAR)
was sufficient for FNS officials to ensure that States were devoting sufficient resources to their
fraud detection efforts. The information reported on the SAR is compiled using each State’s
Program and Budget Summary Statement Part B – Program Activity Statement (FNS-366B).
The FNS-366B is used by States to report information on SNAP operations, such as participation
rates, investigations, prosecutions, disqualifications, and claims. This information is used to
produce the SAR which FNS officials rely upon to assess the effectiveness of States’ fraud
detection units. However, FNS’ assessment of State fraud detection activities could be limited
by the accuracy of the State-reported information.

Our reviews in New Jersey disclosed several instances in which the accuracy of the reported
information on the FNS-366B could not be verified. For example, we noted that in fiscal
year (FY) 2009 for the five counties the Office of Inspector General (OIG) visited, New Jersey
reported the issuance of 125 waivers where clients signed disqualification consent agreements.7
However, we found that State officials could only provide documentation to substantiate the
issuance of 14 (11 percent) of the reported waivers. Similarly, in FY 2008 the State reported 131
instances where decisions rendered by the State during the administrative hearing process were
upheld; however, only 18 could be substantiated (14 percent).8 According to New Jersey State
officials, the State does not require supporting documentation be submitted from the county
offices to validate the information reported. We conducted visits to the county offices and found
that the information could not be validated because of inadequate record keeping.

Further, during our review in Florida, we found non-SNAP cash benefits were reported on the
FNS-366B.9 A Florida State official acknowledged that the inclusion of non-SNAP cash
benefits on the FNS-366B was incorrect, and attributed it in part to the continued use of outdated
guidance. This guidance, prior to being superseded on November 30, 2007, required the
inclusion of cash benefits in one section of the report. Moreover, the official acknowledged that
Florida personnel had misinterpreted the older guidance and had improperly included the cash
benefits in subsequent sections of the FNS-366B.



7
  This reflects the number of cases where individuals waived their right to a hearing, but did not contest the disqualification period.
8
  The scope of our review (FY 2008 and FY 2009) included a timeframe prior to the establishment of the Recovery Act. The Recovery Act was
not signed into law until February 17, 2009.
9
  Non-SNAP cash benefits are provided through the Temporary Assistance for Needy Families program, which is a program administered by the
State.


Audit Report 27703-02-Hy                                                                                                                3
Julie Paradis

Without a system to periodically verify State-reported information on recipient fraud detection
activities, FNS’ ability to assess program risks and improve SNAP program integrity and
efficiency is reduced. We discussed this issue with FNS officials on June 1, 2010. Although
FNS officials agreed with our findings, they contended that this issue pertains to their normal
program operations and is not directly related to the expenditure of Recovery Act funds;
therefore, it should not be reported on the Recovery.gov website. Although we acknowledge the
FNS officials’ concerns, we also note that this issue does affect the increased SNAP funding
provided under the Recovery Act. Due to the heightened expectations for accountability and
transparency of the Recovery Act, it is the agency’s responsibility to develop and implement
additional measures beyond normal operations to ensure program integrity. Therefore, we
recommended that FNS identify and implement a process for periodically assessing the States’
fraud detection units.

Please provide a written response within 5 days that outlines your corrective action on this
matter. If you have any questions, please contact me at (202) 720-6945, or have a member of
your staff contact Theresa Bulla, Audit Director, Food and Marketing Division, at
(202) 720-5907.




Audit Report 27703-02-Hy                                                                       4
                           USDA’S




           FOOD AND NUTRITION SERVICE




            RESPONSE TO AUDIT REPORT




Audit Report 27703-02-Hy                5
                   DATE:             July 23, 2010
United States
Department of
Agriculture        TO:               Gil H. Harden
                                     Assistant Inspector General, Office of the Inspector General
Food and
Nutrition
Service            FROM:             Julie Paradis, FNS Agency Administrator /S/

3101 Park          SUBJECT:         Response to the FAST Report 27703-02-HY: State Fraud Detection
Center Drive
Room 803                            Efforts in SNAP
Alexandria, VA
22302-1500


                 Thank you for the opportunity to respond to the OIG FAST Report 27703-02-HY: State
                 Fraud Detection Efforts in SNAP.

                 The audit objectives stated in the FAST Report were to assess FNS' oversight of State
                 agencies' efforts to identify recipients fraudulently misusing Supplemental Nutrition
                 Assistance Program (SNAP) benefits, and to determine whether Recovery Act funds are
                 expended in a manner that minimizes the risk of improper use. Specifically, the report
                 documents the results of the OIG’s assessment of two States' fraud detection units, and
                 asserts that FNS needs to periodically perform reviews of State fraud detection efforts to
                 identify areas that need improvement.

                 The OIG looked at New Jersey and Florida, and found variances in their respective
                 operations that may have indicated reporting and documentation inadequacies. While the
                 inconsistencies identified with the reporting and documentation are of concern, FNS does
                 not believe these deficiencies are a sufficient basis on which to conclude that State efforts
                 to detect and deter program fraud are ineffective or otherwise compromised. Additionally,
                 because of the very limited sample size, it is not possible to generalize the finding
                 identified in two States as characteristic of other States’ performance.

                 FNS will work with New Jersey and Florida to address the reporting and documentation
                 inconsistencies identified in this report. We will also work to determine the implications
                 of those apparent deficiencies for the overall effectiveness of States’ anti-fraud efforts, and
                 share lessons learned with other States and FNS Regional Offices as appropriate.

                 FNS has a robust and effective program of technical assistance and oversight to insure
                 proper administration of SNAP by our State partners. It is a comprehensive multi-faceted
                 approach including Program Management Evaluations (MEs), Quality Control (QC)
                 reviews, and Financial Management Reviews (FMRs). Where State responsibilities or
                 funding changed under the Recovery Act, the Agency has taken timely and effective steps
                 to further strengthen this process with extensive policy guidance and expanded scope and
                 frequency of MEs and FMRs. The areas of State operational responsibility addressed in
                 this FAST Report, however, were unaffected by the provisions of the Recovery Act.

                 FNS and its State partners share a strong, collaborative partnership to promote payment
                 accuracy, combat program fraud, and strengthen efforts to identify and recover improper
                 payments made in the Program. The outcome of this partnership, and the significant

                                              AN EQUAL OPPORTUNITY EMPLOYER
investment FNS has made in program integrity, is most notably demonstrated in the dramatic
improvements that have been achieved in overall SNAP payment accuracy rates. Since FY
1999, SNAP payment accuracy has risen from 90.14 percent to 95.64 percent—the highest
rate ever achieved by the Program.

FNS and its State partners’ welcome the independent assessments of the OIG and
acknowledge the contribution they represent to further strengthening the integrity of the
SNAP, and encourage the OIG to consider including a broader examination of State anti-
fraud activities, including the concerns suggested in this report, in their plans for future audit
work as deemed appropriate by OIG. An independent, nationally representative review of
these issues would be extremely helpful to the Agency as it works to target its limited
technical assistance and oversight resources in thoughtful, risk-based manner.




                                 AN EQUAL OPPORTUNITY EMPLOYER
